                DEPARTMENT OF HOMELAND SECURITY
                                  Office of Inspector General
                               Dallas Field Office – Audit Division
                                  3900 Karina Street, Room 224
                                       Denton, Texas 76208

                                        December 9, 2003

MEMORANDUM

TO:    Edward G. Buikema, Regional Director
             FEMA Region V



FROM:          Tonda L. Hadley, Field Office Director

SUBJECT:      Grant Management: Michigan’s Compliance
 With Disaster Assistance Program’s Requirements
Audit Report Number DD-04-04
___________________________________________________________________________

This memorandum transmits the results of the subject audit performed by McBride, Lock &
Associates, an independent accounting firm under contract with the Office of Inspector
General. In summary, McBride, Lock & Associates determined that the Michigan State
Police-Emergency Management Division (MSP-EMD) could improve certain financial and
program management procedures associated with the administration of disaster assistance
funds.

On September 5, 2003, you responded to the draft audit report, stating that you agreed with
the majority of the 13 recommendations included in the report. The attached report includes
your response, in its entirety, as Attachment C. Your comments are also paraphrased and
presented after each finding in the report, along with additional comments from the auditors.

The actions described in your response were sufficient to resolve and close three
recommendations: A.3, B.1, and B.2. Recommendations B.3, B.5, and B.7 remain unresolved
because your response did not adequately address them. The remaining seven
recommendations (A.1, A.2.1, A.2.2, A.4, A.5, B.4, and B.6) remain unresolved because
your response did not include a target completion date for planned actions.

Please advise this office by January 8, 2004, of actions taken or planned to implement
recommendations B.3, B.5, and B.7. Any planned actions should include target completion
dates. Also, please provide target completion dates for planned actions related to
recommendations A.1, A.2.1, A.2.2, A.4, A.5, B.4, and B.6.
We would like to thank your staff and the MSP-EMD staff for the courtesies extended to the
auditors during their fieldwork. Should you have any questions concerning this report, please
contact Paige Hamrick or me at (940) 891-8900.
SUITE 406
1221 BALTIMORE AVE.
KANSAS CITY, MO 64105
TELEPHONE: (816) 221-4559
FACSIMILE: (816) 221-4563
CERTIFIED PUBLIC ACCOUNTANTS

MCBRIDE, LOCK & ASSOCIATES


                                                            June 23, 2003



Federal Emergency Management Agency
Office of Inspector General
Washington, DC 20472


       McBride, Lock & Associates conducted an audit of the Michigan State Police Emergency
Management Division (MSP-EMD) to assess its compliance with the Robert T. Stafford Disaster
Relief Emergency Act (as amended) and applicable Federal regulations. The audit was
conducted at the request of the Federal Emergency Management Agency (FEMA), Office of
Inspector General.

        The objectives were to determine if the MSP-EMD administered the grant programs in
accordance with Federal regulations, accounted for, reported and used FEMA funds properly.
The audit identified opportunities for improvement in several areas to include: (1) The financial
reporting system for Public Assistance and Hazard Mitigation grants, (2) cash management
practices, (3) establishing a current indirect cost rate, (4) timeliness of IFG payments to
subrecipients, (5) timeliness of closeout efforts, (6) submission and contents of administration
and program plans, (7) guidance for subgrantee Single Audit reports, (8) establishing
documentation of operating and financial reporting procedures, (9) retaining documentation of
project ranking process, and (10) monitoring all critical elements for property management.

       The audit was conducted under the authority of the Inspector General Act of 1998, as
amended and in accordance with generally accepted government auditing standards, FEMA’s
Office of Inspector General audit guide and 44 CFR. Although the report comments on certain
financial related information, we did not perform a financial audit, the purpose of which would
be to express an opinion on the financial statements. The audit scope included financial and
program activities for the seven Presidential disaster declarations open as of September 30, 2001.
We reviewed all grants for the Public Assistance, Hazard Mitigation, and Individual and Family
Grant programs.

        An exit conference was held to discuss the findings and recommendations included in the
report with officials from FEMA Region V and the MSP-EMD and other Michigan State
officials on June 23, 2003.
       McBride, Lock & Associates appreciates the cooperation and assistance received, during
the audit, from both MSP-EMD and FEMA personnel.




                                                         McBride, Lock & Associates
                                      Table of Contents

                                                                                      Page

I.     Executive Summary                                                              1

II.    Background                                                                     3

III.   Objectives, Scope and Methodology                                              5

IV.    Findings and Recommendations

       A.     Financial Management

              1.     Inaccurate Financial Reporting – Public Assistance (PA) Grants   7
              2.     Inaccurate Financial Reporting – Hazard Mitigation (HM) Grants   9
              3.     Cash Management – Individual and Family Grants (IFG)             10
              4.     Cash Management – Public Assistance (PA) and Hazard              12
                       Mitigation (HM) Grants
              5.     Outdated Indirect Cost Rate                                      13

       B.     Program Management

              1.     Timeliness of Payments – Individual and Family Grants (IFG)      14
              2.     Program Closeout – Individual and Family Grants (IFG)            16
              3.     Administrative and Program Plans – Public Assistance (PA)        17
                       and Hazard Mitigation (HM) Grants
              4.     Single Audit Efforts – Public Assistance (PA) and Hazard         19
                       Mitigation (HM) Grants
              5.     Documentation of Procedures – Public Assistance (PA) and         20
                       Hazard Mitigation (HM) Grants
              6.     Documentation of Project Ranking Process – Hazard                22
                       Mitigation (HM) Grants
              7.     Property Management                                              23

V.     Attachments

       A.     Summary Schedule of Sources and Applications of Funds as of
                September 30, 2001
       A-1.   Schedule of Source and Application of Funds Under Disaster No. 1128
       A-2.   Schedule of Source and Application of Funds Under Disaster No. 1181
       A-3.   Schedule of Source and Application of Funds Under Disaster No. 1226
       A-4.   Schedule of Source and Application of Funds Under Disaster No. 1237
       A-5.   Schedule of Source and Application of Funds Under Disaster No. 3137
       A-6.   Schedule of Source and Application of Funds Under Disaster No. 1346
       A-7.   Schedule of Source and Application of Funds Under Disaster No. 3160

       B.     Comparison of Reported State and Local Share Expenditures

       C.     Management Comments
                                             0
      I. EXECUTIVE SUMMARY

McBride, Lock & Associates has completed an audit of the Michigan State Police – Emergency
Management Division’s (MSP-EMD) management and administration of disaster assistance
programs authorized by the Robert T. Stafford Disaster Relief and Emergency Assistance Act
(Public Law 93-288, as amended), applicable Federal regulations and FEMA guidelines. The
objectives of the audit were to determine whether the MSP-EMD office:


        •    administered FEMA disaster assistance programs in accordance with the Stafford Act
             and applicable Federal regulations,

        •    complied with the FEMA-approved disaster assistance administrative plans,

        •    properly accounted for and expended FEMA disaster assistance funds, and

        •    operated and functioned appropriately to fulfill its administrative, fiscal, and program
             responsibilities.

This report focuses the MSP-EMD’s systems and processes for ensuring that grant funds were
managed, controlled, and expended in accordance with the Stafford Act and the requirements set
forth in Title 44 of the Code of Federal Regulations (44 CFR). Although the scope of this audit
included a review of costs claimed for the declared disasters, a financial audit of those costs was
not performed. Accordingly, we do not express an opinion on the MSP-EMD’s financial
statements. The sources and applications of funds for the disasters included in the audit scope
are presented in Attachment A of this report.

Our audit covered seven major disasters declared by the President of the United States between
July 1996 and January 2001. Two of the disasters involved all three types of grant programs –
Public Assistance (PA) Grants, Individual and Family Grants (IFG), and Hazard Mitigation
(HM) Grants. Disaster Nos. 1226, 1237, 3137 and 3160 did not include the IFG program. The
Federal share of obligations for the seven disasters was about $124 million. Federal
expenditures through September 30, 2001, were approximately $110 million.

In accordance with our agreement with the FEMA Office of Inspector General (OIG), our audit
focused on the MSP-EMD’s current program and financial management procedures and
practices. During the audit, we attempted to the extent possible to identify the causes of each
reportable condition. We also made recommendations that, if implemented properly, would
improve the MSP-EMD’s management, eliminate or reduce weaknesses in internal controls, and
correct noncompliance situations. The findings summarized below are discussed in detail in the
body of the report.

A.      Financial Management

        1.      PA Financial Reporting

                The MSP-EMD could not provide documentation of the calculations used to
     estimate the local cost share of program expenditures as reported under the recipient share of
     outlays on the quarterly Financial Status Reports (FSR) for Public Assistance Grants. The
     MSP-EMD revised its September 30, 2001 FSR’s; however, the database could not be
                                                 1
queried to support the revised submission FSR nor was the database fully supported by the
official accounting records.

   2.     HM Financial Reporting

          The information used by the Hazard Mitigation officials to estimate the local
          portion of program expenditures was not based upon information supported by the
          official accounting records.        The MSP-EMD also performed erroneous
          calculations to estimate the local portion of program expenditures.

   3.     IFG Cash Management

          The MSP-EMD did not adequately manage FEMA funds to meet Federal cash
          management requirements to minimize the time elapsing between the transfer of
          funds and disbursement by the State while administering the IFG grant.

   4.     PA and HM Cash Management

          The MSP’s system for drawdown of Federal funds for the PA and HM programs
          allowed for the drawdown of funds from 14 days prior to distribution to 22 days
          subsequent to distribution. Administrative fund drawdowns were not made until
          the end of the quarter.

   5.     Indirect Cost Rate

          The MSP’s indirect cost rate is outdated and does not accurately reflect current
          indirect costs associated with administering FEMA disaster assistance programs.

 B.       Program Management

   1.     IFG Timeliness of Payments

          Lengthy delays occurred in the processing of applications and payments to
          subrecipients of the IFG program. The average time to process the check to the
          subrecipient was 149 days.

   2.     IFG Program Closeout

          The MSP-EMD did not closeout IFG disaster 1128 until approximately 450 days
          subsequent to the completion of award activities.

   3.     PA and HM Administrative and Program Plans

          The MSP-EMD did not submit administrative plans and program plans for the
          Public Assistance and Hazard Mitigation Grant Programs in accordance with
          Federal requirements.



   4.     Single Audit Efforts

                                          2
               The MSP-EMD’s review policy of subgrantee Single Audit reports did not ensure
               that all reports were received or reviewed timely. No reconciliation was
               performed on the Single Audit reports to ensure that all FEMA funds were
               accountable.

       5.      Documentation of Operating and Financial Reporting Procedures

                       The MSP-EMD has not adequately documented operating and financial
               reporting procedures.

       6.      HM Documentation of Project Ranking Process

               The MSP-EMD did not maintain adequate documentation of the Hazard
               Mitigation project ranking and selection process.

       7.      Property Management

               The MSP-EMD’s control over accountable property did not provide for critical
               elements required by State regulations.

     II.       BACKGROUND

Federal assistance is usually needed to supplement response efforts after major disasters and
emergencies. When Federal assistance is needed, a Governor can request the President of the
United States to declare a major disaster and thereby make relief grants available through the
Federal Emergency Management Agency (FEMA). FEMA, in turn, can make grants to State
agencies, local governments, private citizens, nonprofit organizations, and Indian tribes or
authorized tribal organizations through a designated agency within the affected State.

Robert T. Stafford Disaster Relief and Emergency Assistance Act, as amended

The Stafford Act governs Presidentially declared disasters. Title 44 of the Code of Federal
Regulations (CFR) provides further guidance and requirements for administering disaster-relief
grants awarded by FEMA.

The three major disaster programs addressed in this audit are:

       •    Individual and Family Grants
       •    Public Assistance Grants
       •    Hazard Mitigation Grants

Individual and Family Grants (IFG) are awarded to individuals and families who, as a result
of a disaster, are unable to meet disaster-related expenses and needs. To obtain assistance under
this type of grant, the Governor of a State must express an intention to implement the IFG
program. The Governor’s request must include an estimate of the size and cost of the program.
The IFG program is funded by FEMA (75 percent) and the State (25 percent).

Public Assistance (PA) Grants are awarded to State agencies, local governments, qualifying
private nonprofit organizations, Indian tribes, or authorized tribal organizations for the
repair/replacement of facilities, removal of debris, and establishment of emergency protective
                                                3
measures necessary as a result of a disaster. To receive a PA grant, a designated representative
of an organization affected by the disaster must sign a Notice of Interest. The notice is sent to
the grantee (MSP-EMD) and to FEMA, which schedules an inspection of the damaged facilities.
Inspection teams prepare Project Worksheets (PWs), previously Damage Survey Reports
(DSR’s), identifying the eligible scope of work and estimated cost for the projects. FEMA
reviews and approves the PWs and obligates the funds. At least 75 percent of the cost is paid by
FEMA. The remainder is paid by non-Federal sources.

Title 44 provides that PA projects be classified as either “small” or “large”. The classification is
based on a project threshold amount that is adjusted annually to reflect changes in the Consumer
Price Index for All Urban Consumers, as published by the U.S. Department of Labor. For
example, the threshold for Disaster No. 3160 was $50,600.

Projects costing less than $50,600 were classified as “small” projects and projects costing
$50,600 or more were classified as “large”.

To speed up payments to subgrantees for small projects, the Federal share of the cost is disbursed
as promptly as possible after approval by FEMA. Subgrantees of large projects submit periodic
requests to the State for funds to meet expenses incurred or expected in the near future. When
the project is completed, the State determines and reports the final cost to FEMA. FEMA adjusts
the amount of the grant to reflect the actual cost.

Hazard Mitigation (HM) Grants are awarded to states to help reduce the potential for future
disaster damages. The State must submit a letter of intent to participate in the program, and
subgrantees must submit an HM grant proposal to the MSP-EMD. The MSP-EMD, as the
grantee, is responsible for setting priorities for the selection of specific projects. Each project
selected by the State must be approved by FEMA. FEMA awards subgrants to State agencies,
local governments, qualifying private nonprofit agencies, Indian tribes, or authorized tribal
organizations. The cost of the projects is shared with FEMA. FEMA is authorized to pay not
more than 75 percent of the eligible cost of the project. However, the amount of Federal
assistance under the HM grant program is limited pursuant to Section 404 of the Stafford Act.

Under the PA and HM grant programs, FEMA may provide three types of administrative funds
for overseeing the program.

       1. An administrative cost allowance to the grantee to cover extraordinary costs directly
          associated with administering the program. The allowance amount is determined by a
          statutorily mandated sliding-scale percentage (ranging from one-half of one percent to
          three percent) applied to the total Federal disaster assistance awarded under the
          program. The allowance is intended for extraordinary costs, such as those incurred
          for preparing Project Worksheets; or final inspection reports; processing project
          applications; conducting final audits and related field inspections; overtime; per diem;
          and travel expenses. The administrative cost allowance does not include regular time
          for employees.

       2. State management costs to cover ordinary or regular expenses directly associated
          with the program.

       3. Indirect costs based on an approved indirect cost allocation plan.

                                                 4
 For the IFG program, up to five percent of the Federal share of total program costs may be
 granted for administration costs.

 Michigan State Police – Emergency Management Division

 The Michigan State Police Emergency Management Division (MSP-EMD) is the disaster and
 emergency management agency for the State of Michigan. The MSP-EMD’s mission is to
 manage emergency-related programs for the State of Michigan. This responsibility represents a
 commitment to the people of Michigan to minimize disaster risk and helps protect lives and
 property.

 The MSP-EMD does not use the service of other State agencies, except the Family Independence
 Agency, which has assisted with the IFG program. The MSP-EMD must, however, work closely
 with other departments and agencies to accomplish its goals.

 III.      OBJECTIVES, SCOPE, AND METHODOLOGY

 The objective of this audit was to determine whether the MSP-EMD (the grantee) had:

                administered FEMA disaster assistance programs in accordance with the Stafford
                Act and applicable Federal regulations,

                complied with the FEMA-approved disaster-assistance administrative plans,

                properly accounted for and expended FEMA disaster-assistance funds, and

                operated and functioned appropriately to fulfill its administrative, fiscal, and
                program responsibilities satisfactorily.

 The scope of our audit consisted of the following seven disasters declared between July 1996 and
 January 2001:

Disaster                                                           Date                Assistance
Number                   Type of Disaster                         Declared             Provided

1128         Severe Storms and Flooding                     July 23, 1996           IFG, PA, HM
1181         Severe Storms, Tornado and Flooding            July 11, 1997           IFG, PA, HM
1226         Severe Storms and Straight-Line Winds          June 24, 1998           PA, HM
1237         Severe Storms and High Winds                   August 5, 1998          PA, HM
3137         Snow Emergency                                 January 27, 1999        PA
1346         Severe Storms and Flooding                     October 17, 2000        IFG, HM
3160         Snow Emergency                                 January 10, 2001        PA

 The audit cut-off date was September 30, 2001. The MSP-EMD made payments through the
 State of Michigan’s accounting system and had policies and procedures in place for compliance
 with State accounting guidelines. The MSP-EMD used several accounting databases to track
 expenditures for each disaster and each program within the disasters, and it also noted the
 expenditure amount funded with federal or local dollars.


                                                5
Our audit was conducted in accordance with the FEMA Consolidated Audit Guide for Grant
Audits of FEMA Disaster Programs provided by the Office of Inspector General (OIG). Our
audit work included a site visit at the FEMA Region V office in Chicago, Illinois, and audit
fieldwork at the MSP-EMD’s office in Lansing, Michigan. Our methodology included
reviewing files at FEMA Region V, discussing the MSP-EMD’s administration and grant
oversight with Region V personnel, and reviewing region and MSP-EMD contract files,
accounting records, and correspondence, including administrative and program plans. We also
interviewed knowledgeable FEMA and MSP-EMD personnel.

To assess compliance and performance with grant management provisions, we selected and
tested numerous PA and HM projects and IFG subrecipient awards to determine if the project or
subrecipient award was administered within program guidelines. We included both open and
closed projects and subrecipient awards in our review, but emphasized the evaluation of the
MSP-EMD’s current internal controls and procedures to identify current internal control system
weaknesses or noncompliance issues. When developing findings and recommendations, we
considered the views of the FEMA regional office and guidance from FEMA headquarters.

We also evaluated how the MSP-EMD accounted for and used FEMA program funds to ensure
that the MSP-EMD had internal controls and procedures in place to account for program funds
and safeguard federal assets. Finally, we reviewed the MSP-EMD’s financial reporting process
to ensure that it submitted accurate financial expenditure reports. These two objectives included
a review of overall internal controls of the MSP-EMD, management oversight activities, and the
financial management system used by the MSP-EMD. In our sample of PA and HM projects
and IFG subrecipients noted above, we tested expenditures incurred for allowability in
accordance with applicable cost principles. We also selected several financial reports submitted
by the MSP-EMD and reconciled those reports to:

               Supporting accounting system used by the State of Michigan
               The MSP-EMD’s Federal Cash Transaction Reports
               FEMA databases (ADAMS, NEMIS)
               FEMA’s accounting system (IFMIS)

Our review of financial reports also included reviewing the MSP-EMD’s system for allocating
costs to disasters and programs, testing the timeliness and accuracy of payments to subgrantees
and subrecipients, determining the timeliness of financial reporting, and evaluating the MSP-
EMD’s overall cash management (both the timing on how funds are drawn down from the
SMARTLINK system and how funds are advanced to subgrantees).

The Michigan Office of the Auditor General conducts bi-annual financial audits of the MSP-
EMD including the provisions of the Single Audit Act. We reviewed the audits for the two year
periods ended September 30, 1997, 1999 and 2001. We also reviewed the performance audit of
the MSP-EMD that was completed in July 1999. For each audit, the auditors identified findings
and recommendations related to the FEMA grants. We reviewed these reports and their
supporting workpapers to assess whether these findings affected the scope of our audit or our
specific audit tests. We also reviewed the reports of these audits to determine if findings at the
subgrantee level had an effect on our audit scope or procedures.

The audit was conducted in accordance with Government Auditing Standards, as revised, as
prescribed by the Comptroller General of the United States. We were not engaged to and did not

                                                6
perform a financial statement audit, the objective of which would be to express an opinion on
specified elements, accounts, or items. Accordingly, we do not express an opinion on costs
claimed for disasters under the scope of the audit. If we had performed additional procedures or
conducted an audit of the financial statements in accordance with generally accepted auditing
standards, other matters might have come to our attention that would have been reported. This
report relates only to the accounts and items specified and does not extend to any financial
statements of the Michigan State Police, Emergency Management Division, or the State of
Michigan.

IV.    FINDINGS AND RECOMMENDATIONS

Audit results are summarized in two major sections: Financial Management and Program
Management. These sections contain findings and related recommendations.

Based on the number and nature of findings, we concluded that financial management controls
and program management controls should be improved to better protect assets and prevent errors
and fraud. In view of the nature and significance of the findings, we concluded that the MSP-
EMD did not comply, in all material respects, with applicable laws and regulations relative to the
findings.

A. FINANCIAL MANAGEMENT

1. Inaccurate Financial Reporting – Public Assistance (PA) Grants

The MSP-EMD could not provide documentation of the calculations used to estimate the
subgrantee cost share of program expenditures as reported under the recipient share of outlays on
its quarterly Financial Status Reports (FSRs). During the audit, MSP-EMD officials reviewed
their procedures for estimating the subgrantee cost share of program expenditures and submitted
revised September 30, 2001 FSRs. However, neither the initial nor the revised FSR submissions
were based upon information that was supported by the official accounting records.

The MSP-EMD does not have a system by which the subgrantees’ cost share of program
expenditures is tracked. Therefore, the MSP-EMD estimates the subgrantee cost share of
program expenditures for reporting the financial status of the disaster programs each quarter.
When we inquired how the MSP-EMD officials estimated the subgrantee cost share, they could
not provide documentation or a clear explanation of the calculations by which these expenditures
were estimated.

During our review, MSP-EMD officials recalculated the recipient share of outlays as of
September 30, 2001, and stated that the original calculations were erroneous and likely double-
counted the State and subgrantee cost share on projects for which other State of Michigan
agencies were subgrantees. On November 8, 2002, MSP-EMD officials resubmitted the
September 30, 2001 FSRs to reflect the results of their revised calculations.

The MSP-EMD’s revised calculations relied upon a stand-alone database to calculate the
estimated subgrantee cost share. The database is used to store other financial data for individual
projects that is not posted to the State’s official accounting records. Payments of the Federal and
State portions of project expenditures are logged into the database as they are posted to the State
accounting system. MSP-EMD officials stated that the database could not be queried to reflect

                                                 7
expenditures of the programs as of September 30, 2001. Therefore, MSP-EMD officials used
post-September 30, 2001 database activity to adjust the current balances back to September 30,
2001. However, the official accounting records did not support the current or adjusted database
balances. MSP-EMD officials confirmed that they do not verify the completeness and accuracy
of the database by reconciling it to the State accounting system on a periodic basis because the
database was not intended to be an official record.

According to 44 CFR 13.20(b)(1), the financial management systems of grantees (the State) must
permit “accurate, current, and complete disclosure of the financial results of financial assisted
activities. . . in accordance with the financial reporting requirements of the grant or subgrant.”

Further, 44 CFR 13.20(b)(2) states that “Grantees and subgrantees must maintain records which
adequately identify the source and application of funds provided for financially-assisted
activities.” The regulation continues, “Records must contain information pertaining to. . .
outlays or expenditures.”

     Conclusions and Recommendations

Although the MSP-EMD has developed payment controls to mitigate under-match of State and
subgrantee expenditures in individual grant disbursements, the MSP-EMD has assumed an
unnecessary risk that the State and subgrantee cost share of program expenditures may be under-
matched in the aggregate due to the lack of an accurate reporting indicator. The development of
a more accurate financial reporting process for these expenditures would provide an additional
monitoring tool for FEMA and the MSP-EMD to help mitigate such a risk.

Accordingly, we recommend that the Regional Director, FEMA Region V, require the MSP-
EMD to develop a more accurate financial reporting process that includes reconciling the
database to the State accounting system on a periodic basis to ensure that the subgrantee cost
share of program expenditures calculations are supported by the official accounting records.

     Management’s Response

FEMA Region V concurred with this finding and recommendation, stating that MSP-EMD
officials had assured them that their financial reporting procedures have been amended to include
a reconciling of the database to the State accounting system and such reconciliation is currently
being performed on a quarterly basis. FEMA Region V also stated that they would verify the
State’s reconciliation process in the next fiscal year.




                                                8
     Auditor’s Additional Comment

The actions described by management adequately address the condition cited. However, to
resolve the recommendation, FEMA Region V should provide a target date for completion of the
actions. The recommendation can be closed when FEMA Region V verifies the State’s
reconciliation process.

2. Inaccurate Financial Reporting – Hazard Mitigation (HM) Grants

The MSP-EMD’s calculation of the recipient share of outlays, as reported on the quarterly
Financial Status Reports (FSRs) submitted to FEMA, was not based upon information that was
supported by the official accounting records. Further, the MSP-EMD’s equation for calculating
the estimated subgrantee cost share of program expenditures contained errors.

The MSP-EMD does not have a system by which the subgrantees’ cost share of program
expenditures is tracked. Therefore, the MSP-EMD estimates the subgrantee cost share of
program expenditures for reporting the financial status of the disaster programs each quarter.

The MSP-EMD’s estimations of the subgrantee cost share of program expenditures relied upon a
stand-alone spreadsheet. MSP-EMD officials use the spreadsheet to store financial data for
individual projects that is not posted to the State’s official accounting records. Payments of the
Federal and State portions of project expenditures are logged into the spreadsheet as they are
posted to the State accounting system. MSP-EMD officials then calculate the subgrantee cost
share of project expenditures from the information in the spreadsheet. However, the official
accounting records did not support the spreadsheet balances. MSP-EMD officials confirmed that
they do not verify the completeness and accuracy of the spreadsheet by reconciling it to the State
accounting system on a periodic basis because the spreadsheet was not intended to be an official
record.

Additionally, the MSP-EMD estimated the subgrantee cost share of program expenditures for
uncompleted projects by applying the State and subgrantee cost share rate to the Federal cost
share of program expenditures for such projects, rather than the total eligible project
expenditures to date.

According to 44 CFR 13.20(b)(1), the financial management systems of grantees (the State) must
permit “accurate, current, and complete disclosure of the financial results of the financial assisted
activities. . . in accordance with the financial reporting requirements of the grant or subgrant.”

Further, 44 CFR 13.20(b)(2) states that “Grantees and subgrantees must maintain records which
adequately identify the source and application of funds provided for financially-assisted
activities.” The regulation continues, “Records must contain information pertaining to. . .
outlays or expenditures.”

     Conclusions and Recommendations

Although the MSP-EMD has developed payment controls to mitigate under-match of State and
subgrantee expenditures in individual grant disbursements, the MSP-EMD has assumed an
unnecessary risk that the State and subgrantee cost share of program expenditures may be under-

                                                 9
matched in the aggregate due to the lack of an accurate reporting indicator. The development of
a more accurate financial reporting process for these expenditures would provide an additional
monitoring tool for FEMA and the MSP-EMD to help mitigate such a risk.

Accordingly, we recommend that the Regional Director, FEMA Region V, require the MSP-
EMD to develop a more accurate financial reporting process for HMG expenditures. This
process should include:

       1. reconciling the spreadsheet to the State accounting system on a periodic basis to
          ensure that the recipient share of outlays is supported by the official accounting
          records, and;

       2. revising its method of calculating the State and subgrantee cost share so that the State
          and subgrantee cost share rate for uncompleted projects is applied to total eligible
          project expenditures to date rather than total Federal expenditures to date.

     Management’s Response

FEMA Region V concurred with this finding and recommendation, stating that MSP-EMD
officials have assured them that they have corrected this issue for all disasters that occurred
subsequent to DR-1237-MI. MSP-EMD reported that for DR-1346-MI and disasters occurring
thereafter: (1) project payments are made on a reimbursement basis, (2) payments are supported
by subgrantees’ accounting documentation, and (3) the reported subgrantee cost share is
currently based upon documented subgrantee match costs. FEMA Region V stated that it would
confirm that MSP-EMD completed these actions.

     Auditor’s Additional Comment

The actions described by management adequately address the conditions cited. However, to
resolve the recommendation, FEMA Region V should provide a target date for when it expects to
confirm completion of the actions. The recommendation can be closed when FEMA Region V
confirms completion of the actions.

3. Cash Management – Individual and Family Grants (IFG)

The MSP-EMD did not adequately manage FEMA funds to meet Federal match requirements
and minimize the time elapsing between the transfer of funds and disbursement by the State
while administering the IFG Program for Disaster 1346.

The MSP-EMD administered the IFG Program for Disaster 1346 through an arrangement with
the State of Michigan Family Independence Agency (FIA). The FIA determined the timing and
amount of the cash drawdown requests from FEMA. However, the FIA could not provide
evidence of a consistent basis for the timing and amount by which drawdowns were requested.
As a result, the Federal funds on hand at the FIA varied greatly from the amount of funds
required for the State’s immediate disbursement needs.

The FIA drew Federal funds 5 times during the 20 month period that the MSP-EMD
administered the program. The following table was derived from accounting records and


                                               10
drawdown requests of the MSP-EMD and the FIA to illustrate the discrepancies in the timing
between the transfer of funds and disbursement by the State:


                 Federal & State         Federal             Total          Total Disbursed
                  Expenditures          Allocation        Drawdowns          Over (Under)
       Date         To Date          of Expenditures       To Date           Drawdowns
      3/1/01          $48,368,299        $36,276,224         $30,769,667          $5,506,557
      5/2/01           68,822,951         51,617,213          51,588,669              28,544
      8/7/01           69,613,952         52,230,536          52,299,143            (68,607)
     10/1/01           70,066,202         52,549,651          52,624,525            (74,874)
     11/1/01           70,175,361         52,655,351          52,663,961              (8,610)
     6/20/02           69,901,540         52,449,941          52,663,961           (214,020)

This analysis indicates that Federal funds held on hand did not match current cash needs.

According to Federal requirements for cash management practices as outlined in 44 CFR
13.21(b), “Methods and procedures for payment shall minimize the time elapsing between the
transfer of funds and disbursement by the grantee or subgrantee.”

The FIA did not establish or provide for a consistent policy by which Federal funds were to be
drawn down for this disaster. In addition, the MSP-EMD did not adequately oversee the FIA’s
cash management practices to ensure that drawdowns did not exceed immediate cash needs.

   Conclusions and Recommendations

The MSP-EMD did not ensure that cash management policies minimized the time elapsing
between the transfer of funds and disbursement to subrecipients. As a result, the MSP-EMD did
not effectively administer the amount of Federal funds on hand throughout the administration of
the disaster.

Accordingly, we recommend that the Regional Director, FEMA Region V, require the MSP-
EMD to establish a consistent method and procedures to minimize the time elapsing between
drawdowns and disbursements of Federal funds.

     Management’s Response

FEMA Region V concurred with this finding and recommendation, stating that “DR-1346-MI
was by far the largest IA declaration the State of Michigan has ever experienced. Thus, the
number of applicants approved exceeded MSP-EMD and FIA expectations. Both agencies were
overwhelmed. As a result of this experience and because of an amendment to the Stafford Act
under DMA 2000, the State of Michigan has chosen the “FEMA Option” for Individual and
Household Program (IHP) administration of future IA declarations. Under the “FEMA Option,”
all payments will be processed directly by FEMA and a bill for collection will be sent to the
State for its cost share.”

                                               11
     Auditor’s Additional Comment

The actions being taken by management adequately address the condition cited and the
recommendation is considered resolved and closed.

4. Cash Management – Public Assistance (PA) and Hazard Mitigation (HM) Grants

The Michigan State Police (MSP) did not adequately manage its cash management policy to
minimize the time elapsing between the drawdown and disbursement of Federal funds. As a
result, Federal funds were not drawn down in accordance with Federal requirements and
disbursed timely.

The MSP-EMD and the Management Services Division of the Michigan State Police (MSP-
MSD) developed a system to draw down funds to meet cash requirements. This system is
designed to meet the immediate cash needs of federal programs and provides for appropriate
levels of analysis and approvals. The MSP-EMD relied upon this system for the drawdown and
disbursement of Federal funds for its PA and HM grant programs. However, the MSP-EMD and
the MSP-MSD did not consistently comply with their own system.

We reviewed a sample of 23 drawdowns for disbursements of funds for grant payments under
the PA and HM grant programs during the years 1999 through 2001. For 13 of the 23
drawdowns, grant payments of Federal funds ranged from 22 days prior to 14 days subsequent to
the drawdown.

The Michigan Office of the Auditor General had also noted a concern in the drawdown of funds
for the administrative portion of disaster grants. Their finding noted that drawdowns were not
made until the close of the fiscal quarter subsequent to when administrative expenditures were
incurred. The MSP-EMD determined this timing to be acceptable.

According to Federal requirements for cash management practices as outlined in 44 CFR
13.21(b), “Methods and procedures for payment shall minimize the time elapsing between the
transfer of funds and disbursement by the grantee or subgrantee.”

     Conclusions and Recommendations

Although the MSP have established an appropriate system of cash management, consistent
compliance with the policy did not occur. The coordination of the State accounting system and
the various individuals involved in the process was not consistent in its application.

Accordingly, we recommend that the Regional Director, FEMA Region V, require MSP to
ensure that the MSP-EMD and the MSP-MSD implement adequate measures to ensure consistent
application of their cash management procedures and to ensure that the time is consistently
minimized between the drawdown and disbursement of funds.

     Management’s Response

FEMA Region V concurred with this finding and recommendation, stating that MSP has assured
them that it will adhere to its own policy to minimize the time elapsing between the drawdown

                                             12
and disbursement of federal funds. FEMA Region V also stated that it would follow-up with the
MSP and confirm that adequate measures are in place.

     Auditor’s Additional Comment

The actions being taken by management appear to adequately address the condition cited.
However, to resolve the recommendation, FEMA Region V should provide a target date for
when it expects to confirm completion of the actions. The recommendation can be closed when
FEMA Region V confirms completion of the actions.

5. Outdated Indirect Cost Rate

The Michigan State Police (MSP) indirect cost rate is outdated and does not accurately reflect
current indirect costs associated with administering FEMA disaster assistance programs.

The MSP has used the same fixed indirect cost rate since 1987. The indirect cost rate was
originally negotiated by the National Highway Traffic Safety Administration (NHTSA) of the
U.S. Department of Transportation with the MSP for the period of October 1, 1986 through
September 30, 1987. Each fiscal year subsequent to the original negotiated period the NHTSA
has approved an extension of the fixed indirect cost rate and noted in the approval letter each
year that the rate would remain in effect through the end of the approved period or until a formal
renegotiation proposal for the indirect cost rate was submitted. However, the MSP has not
submitted a formal renegotiation proposal since the fiscal year 1987 proposal.

Federal requirements for the allowability of indirect costs of grantees under the PA and HM
Grant Programs are specified in 44 CFR 206.228(b)(1) and 44 CFR 206.439(c)(1), respectively.
Both of these sections provide authority for determining the eligibility of indirect costs as
follows: “Indirect costs of administering the disaster program[s] are eligible in accordance with
the provisions of 44 CFR part 13 and OMB Circular A-87.”

According to 44 CFR 13.22(b), “Allowable costs will be determined in accordance with the cost
principles applicable to the organization incurring the costs.” In addition, the section specifies
OMB Circular A-87 as the cost principles applicable to State government.

OMB Circular A-87, Attachment E, Part D outlines Federal requirements for submission and
documentation of indirect cost rate proposals. Section 1.d. of this Part specifies that, unless an
exception is approved by the cognizant Federal agency, “Indirect cost proposals must be
developed (and, when required, submitted) within six months after the close of the governmental
unit’s fiscal year.”

Our review of the signed indirect cost negotiation agreement revealed that the MSP’s fixed
indirect cost rate is “based on the organizational structure and the accounting system in effect at
the time the proposal was submitted.” Further, “Changes in the organizational structure or
changes in the method of accounting for costs which affect the amount of reimbursement
resulting from use of the rates in [the] agreement require the prior approval of the authorized
representative of [NHTSA].”

The MSP-EMD fiscal officer stated that the MSP had performed an analysis of actual indirect
costs in 2001 and the actual indirect cost rate was substantially higher. The 2001 rate analysis

                                                13
disclosed that the suggested rate was 15.2 percent, more than twice the indirect cost rate in use
since 1987. However, as of the date of our audit the MSP had not implemented the more current
rate due to planned personnel changes and organizational restructuring.

The focus of the audit was directed toward the MSP’s management and administration of the
disaster assistance programs rather than the NHTSA’s responsibilities. Therefore, we did not
identify the reasons why the indirect cost rate renegotiation proposal had not been required since
1987.

     Conclusions and Recommendations

The fixed indirect cost rate used by the MSP does not reflect cost estimates based upon the
MSP’s current organizational structure and accounting system. Accordingly, we recommend
that the Regional Director, FEMA Region V, require the MSP to develop an indirect cost rate
renegotiation proposal and submit the proposal to their cognizant agency within 6 months after
the close of the MSP-EMD’s fiscal year annually.

     Management’s Response

FEMA Region V concurred with this finding and recommendation, stating that MSP-EMD
officials have assured them that they are currently updating the indirect cost rate to become
effective in fiscal year 2004. FEMA Region V also stated that it would follow-up with MSP-
EMD and verify that this task is accomplished.

     Auditor’s Additional Comment

The actions being taken by management appear to adequately address the condition cited.
However, to resolve the recommendation, FEMA Region V should provide a target date for
completion of the actions. The recommendation can be closed when FEMA Region V confirms
that the indirect cost rate proposal is developed and implemented as approved by the MSP-
EMD’s cognizant agency.

B. Program Management

1. Timeliness of Payments – Individual and Family Grants (IFG)

IFG subrecipients were not receiving needed assistance in accordance with prescribed time
frames. Our sample of 39 IFG subrecipients for Disaster 1346 disclosed that it took an average
of 149 days between the dates of application to the date that checks went to applicants.
However, because FEMA and the MSP-EMD shared responsibilities for the management of the
Disaster 1346 IFG program, the delays were not solely attributable to the State.

The MSP-EMD administered the IFG program for Disaster 1346 through the State of Michigan
Family Independence Agency (FIA). The FIA entered into an agreement with FEMA that
provided for processing of IFG applications at FEMA’s National Processing Service Center
(NPSC) in Berryville, VA. Under this agreement, the State’s role in the administration of the
IFG program consisted primarily of disbursing grant awards to subrecipients in a timely manner.



                                               14
For the sampled cases, the largest time delay appeared to be from the date an application was
received to when it was approved by FEMA for payment. This part of the process was the
responsibility of FEMA’s National Processing Service Center (NPSC) in Berryville, Virginia.
Because the audit was directed toward the State’s management and administration of the IFG
program and not of FEMA’s responsibilities, the causes of the delays within the NPSC were not
identified. However, we noted that for the 39 cases included in our sample, it took an average of
124 days for FEMA-NPSC to process the cases.

Checks for 24 (61.5 percent) of the cases sampled were not processed and mailed by the FIA
within 10 days after receipt of the approval notice from FEMA, as stated in the FEMA-approved
administrative plan. The FIA processed payments for all of the sampled cases an average of 25
days after receiving the approval from FEMA.

                                                  Average days      Average days Average days
 No. of days State No. of cases Percent of       b/w application    FEMA-NPSC      State to
 took to disburse in sample      Sample           and payment        to process    disburse

      1 - 10             15         38.5%              135               128              7
       11 +              24         61.5%              158               121              37
   Sample Total          39         100.0%             149               124              25

Once the FIA received notice that an application had been approved, the FIA was responsible for
processing the payment and mailing the check to the subrecipient. The FIA’s process often took
longer than was established in the approved administrative plan because the State legislature did
not properly appropriate the necessary funds for the State’s cost share portion of the grant
awards. The FIA disbursed the State portion of the grant funds out of an alternate State
appropriation for several months following the declaration of Disaster 1346. Approximately 9
months after the disaster had been declared, expenditures from the alternate appropriation began
to exceed the cash sources to that appropriation. Soon thereafter, disbursements to subrecipients
were halted until the State legislature appropriated funds for the State’s cost share portion of the
grant awards. However, application approval notices continued to arrive from NPSC as often as
daily, causing the FIA’s portion of the delays in disbursements to climb as high as 73 days for
the cases in our sample. Within a few weeks after FIA halted disbursements, the State legislature
appropriated funds for the State cost share portion of the grant awards and FIA resumed
disbursement of funds.

In accordance with the Stafford Act, the State must disburse IFG grant awards to meet
applicants’ needs. The approved State administrative plan for Disaster 1346 states, “all available
resources [will be used] to insure that all grants are disbursed within 10 days after grant
approval.” Although the new Individual and Households Program (IHP) replaced the IFG
program as of October 15, 2002, the application review and approval process considered here
would remain critical to the timeliness of payments to eligible applicants.

   Conclusions and Recommendations

Providing needed assistance to IFG subrecipients, on a timely basis, is one of the most
significant aspects of a disaster. The prompt payment of grant awards to eligible IFG applicants
is of paramount importance as demonstrated by the criteria set forth in the FEMA-approved
administrative plan for Disaster 1346. Such payments generally involve disaster assistance to the
                                                15
most needy of all disaster-affected subrecipients and include funds for real and personal property
losses, such as basic household items, clothing, and transportation needs. Clearly, the time it
took from receipt of applications to the payments for approved cases for Disaster 1346 was not
consistent with the intent of the Stafford Act or in compliance with the requirements of the
approved administrative plan.

Accordingly, we recommend that the Regional Director, Region V, coordinate with the MSP-
EMD fiscal officer to develop and implement procedures under the new IHP that ensure
disbursements to subrecipients are made in a timely manner according to Federal requirements.

     Management’s Response

The position of FEMA Region V and the State of Michigan is that the cause for the untimely
processing of payments rests with the FEMA NPSC. There was a lengthy delay between the
time the applications were received and when the applications were approved. Therefore,
Michigan’s state legislature was unable to approve the necessary appropriations in a timeframe
consistent with the MSP-EMD’s administrative plan for the IFG program.

However, as the result of an amendment to the Stafford Act under DMA 2000, the State of
Michigan has chosen the “FEMA Option” for administration of future IA declarations under the
IHP. Under the “FEMA Option,” all payments will be processed directly by FEMA and a bill
for collection will be sent to the State for its cost share.

     Auditor’s Additional Comment

The actions being taken by management adequately address the condition cited and the issue is
considered resolved and closed.

2. Program Closeout – Individual and Family Grants (IFG)

The MSP-EMD did not timely close the IFG program for Disaster 1128.

The MSP-EMD administered the IFG program for Disaster 1128 through the State of Michigan
Family Independence Agency (FIA). The FIA requested a 90-day extension for grant award
activities in the program 202 days after Disaster 1128 had been declared. The FEMA Regional
Director approved the request, extending the final closeout date to July 18, 1997. However, the
MSP-EMD did not submit the final closeout report for the IFG program until approximately 450
days later. MSP-EMD and regional office disaster files did not contain evidence of additional
time extensions.

Under 44 CFR 206.131(j)(1)(iii) and (iv), the State is required to complete all grant award
activity within 180 days after the disaster declaration date. The State is also required to complete
all administrative activities, including submission of final reports and vouchers to the FEMA
Regional Director, within 90 days after the completion of all grant award activity. These
statutory requirements give states a total of 270 days past the declaration date to submit final
closeout reports and vouchers to the FEMA Regional Director.

In addition, 44 CFR 206.131(j)(2) states that the Governor’s Authorized Representative may
submit an appropriately justified request for the extension of any time limitation and the FEMA

                                                16
Regional Director may approve the request for a period not to exceed 90 days.              Further
extensions require the approval of the Associate Director.

MSP-EMD officials stated that staffing changes after this disaster resulted in a new grant
coordinating officer closing the IFG program and that is why time extensions were not requested.

     Conclusions and Recommendations

Timely close-out of the IFG program would provide more effective and efficient use of FEMA
and MSP-EMD funds by releasing resources for use on other requirements.

Accordingly, we recommend that the FEMA Regional Director, Region V, require the MSP-
EMD to implement procedures to ensure that IFG programs are closed within prescribed time
frames.

     Management’s Response

FEMA Region V concurred with this finding stating that as a result of an amendment to the
Stafford Act under DMA 2000, the State of Michigan has chosen the “FEMA Option” for IHP
administration; therefore, all future IA declarations will be processed by FEMA directly to
ensure that future IA declarations will be closed within the prescribed time frame.

     Auditor’s Additional Comment

The actions being taken by management adequately address the condition cited and the issue is
considered resolved and closed.

3. Administrative and Program Plans – Public Assistance (PA) and Hazard Mitigation
(HM) Grants

The MSP-EMD did not submit administrative plans and program plans for the PA and HM Grant
Programs in accordance with Federal requirements.

PA Administrative Plans:

The MSP-EMD did not timely submit a revised annual administrative plan each year. Although
the MSP-EMD submitted at least one administrative plan each year, the MSP-EMD did not
submit an annual revision of the State administrative plan for fiscal year 1999 until Disaster 3137
had been declared in January 1999. The MSP-EMD then submitted a revised plan in May 1999
for both the 1999 annual update and Disaster 3137.

In addition, the MSP-EMD did not submit plan updates or amendments for Disasters 1226 and
1237. The MSP-EMD submitted an annual administrative plan revision for fiscal year 1998 in
October 1997. However, Disasters 1226 and 1237 occurred 8 and 10 months, respectively, after
the fiscal year 1998 annual plan revision had been submitted.

According to 44 CFR 206.207(b)(3), which specifies the Federal requirements for State
administrative plans relative to the PA Grant Program, the State is required to submit a revised


                                                17
administrative plan annually and any amendments to meet current policy guidance upon
declaration of each disaster that includes Public Assistance.

The MSP-EMD Public Assistance Officer stated that FEMA approved the October 1997 revision
of the administrative plan for Disasters 1226 and 1237. MSP-EMD officials also stated that
FEMA did not require updates or amendments upon declaration of those disasters.

HM Administrative and Program Plans:

The MSP-EMD did not submit any updates or amendments to the State administrative plan for
Disasters 1226 and 1237, both declared late in fiscal year 1998. The MSP-EMD submitted
revised administrative plans in September 1997 and August 1999. No other submissions were
prepared.

The MSP-EMD’s policy was to submit an updated HM program plan with each administrative
plan revision. However, because the MSP-EMD did not submit any administrative plan updates
or amendments for 1226 and 1237, the HM program plans for these disasters were not submitted.
Additionally, HM program plans submitted for other disasters did not include a method for
implementing, monitoring, evaluating and updating the plan.

According to 44 CFR 206.437(d), which specifies the Federal requirements for State
administrative plans relative to the HM Grant Program, the State is required to submit an
administrative plan to the regional office for approval and, “Following each major disaster
declaration, . . . prepare any updates, amendments, or plan revisions required to meet current
policy guidance or changes in the administration of the Hazard Mitigation Grant Program.
Funds shall not be awarded until the State administrative plan is approved by the FEMA
Regional Director.”

Additionally, within 180 days after a disaster is declared, the State is required to submit to
FEMA a Section 409 HM plan or plan update. The HM plan should address all natural hazards
within the State. The elements to be included in the HM plan are presented in 44 CFR
206.405(a)(4), which requires “a method of implementing, monitoring, evaluating and updating
the mitigation plan. Such evaluation is to occur on at least an annual basis to ensure that
implementation occurs as planned, and to ensure that the plan remains current.”

The MSP-EMD HM Officer stated that FEMA approved the September 1997 revision of the
administrative plan and HM program plan for disasters 1226 and 1237.

   Conclusions and Recommendations

The submission of State administrative plans for the PA and HM programs and Section 409 HM
plans are essential activities to ensure that regulatory and policy guidance amendments are
recognized and properly implemented.

Accordingly, we recommend that the Regional Director, FEMA Region V, require the MSP-
EMD to implement procedures to ensure that State administrative plans and Section 409 HM
plans are prepared and submitted to the Region in accordance with Federal requirements.



                                              18
     Management’s Response

FEMA Region V concurred with these findings and recommendations. However, they stated that
they did approve updates to MSP-EMD’s PA administrative plans for DR-1226-MI and DR-
1237-MI even though official approval letters are not in the disaster file. FEMA Region V also
stated that it currently requires MSP-EMD to amend PA administrative plans according to 44
CFR regulations and that MSP-EMD has complied with all requirements.

Regarding HM administrative and program plans, FEMA Region V stated, “MSP-EMD does
update their administrative plans annually. Region V will work with MSP-EMD to ensure that
the Region is notified in writing when the plan is updated. Accordingly, the Region will issue an
approval letter once they receive the updated administrative plan. Additionally, after each
disaster declaration, FEMA Region V will verify that MSP-EMD has a current administrative
plan and file a copy in the FEMA disaster file.”

     Auditor’s Additional Comment

Management’s response did not address the recommendation. Although the required plans are
currently on file, the audit found that MSP-EMD often did not submit the plans or updates in a
timely manner. Therefore, as the recommendation stated, MSP-EMD should implement
procedures to ensure that State administrative plans and Section 409 HM plans are prepared
and submitted to the Region in accordance with Federal requirements. To resolve the
recommendation, FEMA Region V should provide a target date for completion of the
recommended action. Further, the recommendation cannot be closed until FEMA Region V
confirms that the recommended procedures are in place.

4. Single Audit Efforts – Public Assistance (PA) and Hazard Mitigation (HM) Grants

The MSP-EMD did not adequately monitor subgrantees in accordance with the Single Audit Act.

The MSP-EMD develops and maintains schedules of payments made to subgrantees for purposes
of identifying subgrantees that are required or may be required to have Single Audits. The MSP-
EMD then provides the list of subgrantees and the amounts of their Federal award to the
Management Services Division of the Michigan State Police (MSP-MSD). The MSP-MSD
receives Single Audit reports from the subgrantees and reviews the Schedule of Expenditures of
Federal Awards, the Auditor’s Reports on Internal Controls and Compliance, and any findings.
The MSP-MSD provides resolution to report findings and reporting errors. However, their
review does not provide for reconciliation of funds distributed by the MSP-EMD to the Schedule
of Expenditures of Federal Awards included in the Single Audit report.

Our sample of 55 subgrantees receiving FEMA grant funds noted that only 11 audit reports were
on hand. There was no indication from the MSP-MSD on the remaining 44 subgrantees as to
whether or not the subgrantee required a Single Audit based upon their overall level of funding.
Fifteen subgrantees were tested that received in excess of $300,000 of FEMA funds through the
State of Michigan. However, of those 15, only 3 Single Audit reports had been received and
analyzed by the MSP-MSD. No indication was evident that any follow-up had been performed
to request the Single Audit reports. The review process had not included an assurance
throughout the period under audit that all reports were received or reviewed timely.


                                               19
According to 44 CFR 14.2, the recipient of federal grant funds shall comply with the Single
Audit Act. This CFR includes requirements for annual audits for recipients of funds over
specified dollar amounts as well as for timely submission of the audit report.

The inadequate follow-up on Single Audit compliance by the MSP-MSD occurred because the
MSP-EMD does not have adequate procedures to ensure that all significant subgrantees have
submitted Single Audit reports on a timely basis.

   Conclusions and Recommendations

Responsibility rests with the MSP-EMD to ensure that all significant subgrantees have submitted
Single Audit reports on a timely basis and those reports are adequately reviewed in a timely
manner. Consequently, FEMA and the State have no assurance that subgrantee costs are
receiving adequate audit coverage in accordance with the Single Audit Act.

Accordingly, we recommend that the Regional Director, FEMA Region V, require the MSP-
EMD to develop and implement procedures to ensure that all subgrantee Single Audit reports are
received and reviewed in a timely manner.

     Management’s Response

FEMA Region V concurred with this finding and recommendation, stating that MSP-EMD
officials have assured FEMA Region V that they will develop and implement procedures that
will ensure that all subgrantee Single Audit reports are received and reviewed in a timely
manner. FEMA Region V also stated that it would require a written plan outlining how the
MSP-EMD will accomplish this task.

     Auditor’s Additional Comment

The actions being taken by management appear to adequately address the condition cited.
However, to resolve the recommendation, MSP-EMD should provide a written plan with a target
completion date outlining how the task will be accomplished. Further, the recommendation
cannot be closed until FEMA Region V confirms that the procedures are in place.

5. Documentation of Procedures – Public Assistance (PA) and Hazard Mitigation (HM)
   Grants

The MSP-EMD does not have adequate documentation of day-to-day program management and
administrative operating procedures for the PA and HM Grants Programs. The MSP-EMD also
does not have adequate documentation of financial reporting procedures or allocation procedures
for State management grant costs. The MSP-EMD fiscal officer was among many State
employees taking an early retirement package and documentation of procedures could have
provided a more seamless transition as a replacement fiscal officer took office.

The PA program officer stated that the MSP-EMD PA staff had documented procedures for
some of the administrative tasks performed in recent years, but some of their procedures had not
yet been documented. The PA staff could not readily provide copies of their documented
procedures and procedures they provided were in various formats and levels of specificity. Also,


                                              20
the documented procedures were in various locations and not readily accessible by other
program staff.

The assistant HM program officer confirmed that the MSP-EMD has not documented its
procedures for performing day-to-day tasks and added that the HM staff refers to the FEMA
Hazard Mitigation Desk Reference and other information from FEMA for guidance while
performing day-to-day program management and administrative tasks.

Documented procedures for preparing quarterly financial reports were not available other than a
schedule of various financial reports and their due dates required by various Federal agencies.
The MSP-EMD also could not provide documented procedures for allocating State management
grant costs.

Federal requirements under 44 CFR 13.20(b)(3) state that “Effective control and accountability
must be maintained for all grant and subgrant cash, real and personal property, and other assets.”

MSP-EMD officials stated that they had not given documentation of procedures a high priority.
They also stated that procedures had been developed for various tasks over time as a permanent
staff was developed to administer the disaster programs, but added that work remained to be
done in this area. Officials remarked that adequate procedures were monitored through close
supervision.

Conclusions and Recommendations

The absence of documented program and financial reporting procedures creates a significant
weakness in the MSP-EMD’s control over grants and subgrants. Documented procedures would
provide better control over grants and subgrants by improving the consistency and effectiveness
of the program staff. Documentation of procedures also provides a more seamless transition
during staff turnover and permits staff to step in for one another during critical events in the
administration of a disaster, such as staffing of Disaster Field Offices and project inspections.

Accordingly, we recommend that the Regional Director, FEMA Region V, require the MSP-
EMD to document its procedures for performing day-to-day program management and
administrative tasks of the FEMA disaster assistance programs. Documentation of the
procedures should:

       a. sufficiently detail how to perform each task so that a trainee or another employee
       could effectively perform the task with minimal supervision,

       b. be centrally located so that procedures are readily available and accessible, and

       c. be prepared in a standardized format to aid understanding and comprehension.

     Management’s Response

In its response, FEMA Region V stated:

“PA – The Region concurs with this finding and recommendation. However, MSP-EMD created
numerous Standard Operating Procedures (SOPs). These SOPs were presented to the auditors

                                               21
but not accepted because they were not filed with the Administrative Plan. The MSP-EMD has
assured the Region that these SOPs have been completed. FEMA Region V will confirm that
these SOPs are completed and reflect the intent of the auditors’ recommendation.”

“HM – Although Region V concurs with these findings and recommendations, the State does
submit all their quarterly reports and other necessary documentation on time. Also, MSP-EMD
does manage their HM program efficiently and effectively. The Region will work with the State
and follow-up on this issue to ensure that the MSP-EMD is on target with these tasks.”

     Auditor’s Additional Comment

Management’s response did not address the recommendation. The audit found that HM
procedures were not documented and that some PA program procedures were not documented
and some were documented inconsistently. The benefits of documented procedures are outlined
above under Conclusions and Recommendations. Therefore, as the recommendation stated,
MSP-EMD should document its procedures for performing day-to-day program management and
administrative tasks of the FEMA disaster assistance programs. To resolve the recommendation,
FEMA Region V should provide a target date for completion of the recommended action.
Further, the recommendation cannot be closed until FEMA Region V confirms that the
procedures are documented.

6. Documentation of Project Ranking Process – Hazard Mitigation (HM) Grants

The MSP-EMD did not maintain adequate documentation of its HM project ranking and
selection process for Disasters 1226, 1237 and 1346.

For Disasters 1226 and 1237 the MSP-EMD could not provide information to indicate the State’s
score for each project or how each project’s score was developed. For Disaster 1346, the MSP-
EMD provided a summary of the score for each project considered. However, the summary was
not supported by individual comments of the State’s ranking committee and other information
that would substantiate the State’s score for each project. As a result, implementation of the
MSP-EMD’s project ranking criteria, as stated in the State administrative plan, could not be
verified to comply with 44 CFR 206.434(b).

Under 44 CFR 13.42, which prescribes the time limits and applicability of Federal records
retention requirements, retention and access to “all financial and programmatic records,
supporting documents, statistical records and other records of grantees or sub-grantees which are
otherwise reasonably considered as pertinent to program regulations or the grant agreement,” are
required to be maintained for a period of three years from the day the State (grantee) submits its
final expenditure report to FEMA.

Disasters 1226 and 1237 were declared in 1998 and Disaster 1346 was declared in 2001. As of
the date of our audit, the MSP-EMD had not submitted a final expenditure report for the HM
programs of any of these disasters. Therefore, the three-year retention requirement as stated in
44 CFR 13.42 had not lapsed and the records noted above remained subject to audit.

The HM planning officer stated that the records indicated above were not retained due to the
design of the MSP-EMD’s project ranking process and the number of project applications that
must be evaluated and ranked for each disaster. The officer added that the MSP-EMD had

                                               22
determined that more detailed records from the project ranking process were too voluminous to
retain.

   Conclusions and Recommendations

Since the MSP-EMD could not provide adequate documentation that the HM projects were
ranked and selected in accordance with FEMA program policy, FEMA does not have assurance
that the MSP-EMD ranked and selected projects after giving each project complete and fair
consideration in accordance with applicable requirements.

Accordingly, we recommend that the Regional Director, FEMA Region V, require the MSP-
EMD to develop and implement procedures to adequately document its project selection process
for each disaster.

     Management’s Response

FEMA Region V concurred with this finding and recommendation, stating: “Since the onset of
DR-1346-MI, the MSP-EMD created the Michigan Hazard Mitigation Coordinating Council
(MHCC). The MHCC was established to review mitigation projects and tally score sheets for
projects submitted. Based upon scores from these sheets, projects were selected. However, DR-
1346-MI had a plethora of projects to review. It was decided by the council that this process
would be suspended and that the MHCC would choose projects after a roundtable discussion of
council members. Beginning with DR-1413-MI, MHCC implemented a new scoring system and
collects and maintains score sheets in the disaster file. FEMA Region V will follow-up and
verify that this new system is enacted.”

     Auditor’s Additional Comment

The actions being taken by management appear to adequately address the condition cited.
However, to resolve the recommendation, FEMA Region V should provide a target date for
completion of the recommended action. The recommendation can be closed when FEMA
Region V confirms that the new procedures are documented and implemented.

7. Property Management

The MSP-EMD does not annually reconcile physical inventories of equipment to the accounting
records and the State property records. As a result, equipment purchases per the accounting
records could not be traced to the State’s property records.

According to 44 CFR 13.20(3), “Effective control and accountability must be maintained for all
grant and subgrant. . .real and personal property, and other assets.” Additionally, the regulation
states that “Grantees and sub-grantees must adequately safeguard all such property and must
assure that it is used solely for authorized purposes.”

According to 44 CFR 13.32(b), which prescribes requirements for equipment obtained with
federal grant funds, “A State will use, manage, and dispose of equipment acquired under a grant
by the State in accordance with State laws and procedures.”



                                               23
The State of Michigan’s equipment procedures are outlined in the Office of Financial
Management’s Financial Reporting and Accounting Manual (FRAM). Chapter 21, section one,
of the FRAM details the State’s policies and procedures related to capital equipment assets,
which apply to all departments, branches, and other organizations of the State. The FRAM
requires that “All owned equipment having an acquisition cost of $5,000 or more and a useful
life of more than one year should be capitalized and recorded in the departmental accounting
records.” Further, “An annual physical inventory of equipment for all locations must be taken to
ensure accuracy of capital asset listings used in the development of general capital assets
information.” The FRAM also requires that “A listing of missing equipment and equipment
observed but not recorded should be prepared. Timely reconciliations of the physical inventory
help ensure accurate capital asset records.”

MSP-EMD officials stated that their property management controls had been overlooked during
a restructuring of job responsibilities within the MSP-EMD office a few years prior and the
applicable procedures have not been revised to accommodate the restructuring.

     Conclusions and Recommendations

The MSP-EMD has not provided effective control over equipment purchased with Federal funds
in accordance with State property management requirements. As a result, FEMA does not have
assurance that equipment purchased with FEMA funds is adequately monitored and controlled.

Accordingly, we recommend that the FEMA Regional Director, Region V, require the MSP-
EMD to implement procedures to ensure that property management procedures are followed in
accordance with the State of Michigan FRAM as required by Federal requirements.

     Management’s Response

FEMA Region V did not concur with this finding and recommendation, stating that MSP-EMD
does have procedures in place that oversee property management. The Region also stated that if
the auditors could cite specific instances in which the MSP-EMD was negligent in its accounting
of property, the Region would work with the State to correct the problems.

     Auditor’s Additional Comment

Management’s response did not address the condition cited. MSP-EMD did not comply with the
State’s equipment procedures that require annual reconciliation of physical inventories of
equipment to the accounting records and State property records. Therefore, MSP-EMD has not
maintained effective control and accountability over grant and subgrant property and other assets
in accordance with the FRAM and 44 CFR. Although the audit did not identify specific
instances of abuse, the lack of effective controls increases the likelihood that abuse or errors will
occur. Therefore, procedures should be implemented to ensure compliance and decrease the
likelihood that abuse or errors will occur. To resolve the recommendation, FEMA Region V
should provide a written plan with a target completion date for planned actions. Further, the
recommendation cannot be closed until FEMA Region V confirms that the new procedures are
documented and implemented.




                                                 24
ATTACHMENTS
                                                                                          Attachment A



                             Schedule of Source and Application of Funds
                                        Michigan State Police
                                 Disaster Assistance Grant Program
                                      As of September 30, 2001

                             Summary of All Disasters in Scope of Audit



                                          Public         Individual         Hazard            Total
                                         Assistance      and Family        Mitigation        Disaster
                                          Grants           Grants           Grants           Grants

Award Amounts:

  Federal Share                      $ 77,266,501 $60,056,510 $15,094,995   $152,418,006
  Local/State Share                     29,884,098  19,143,545    5,859,300    54,886,943

Total Award Amount                   $107,150,599     $79,200,055      $20,954,295       $207,304,949

Source of Funds:

  Federal Share                      $ 76,198,415 $55,330,653 $ 6,815,161   $138,344,229
  Local/State Share                     29,713,313  18,563,250    2,815,815    51,092,378

Total Source of Funds                $105,911,728     $73,893,903      $ 9,630,976       $189,436,607

Application of Funds:

  Federal Share                      $ 76,705,150 $55,695,471 $ 6,862,594   $139,263,215
  Local/State Share                     29,713,313  18,564,250    2,815,815    51,093,378

Total Application of Funds           $106,418,463     $74,259,721      $ 9,678,409       $190,356,593



Balance of Federal Funds on Hand     $     (506,735) $     (364,818)   $      (47,433)   $    (918,986)
                                                                                        Attachment A-1



                             Schedule of Source and Application of Funds
                                        Michigan State Police
                                 Disaster Assistance Grant Program
                                      As of September 30, 2001

                         Disaster Grant 1128 Severe Storms and Flooding



                                          Public          Individual        Hazard           Total
                                         Assistance       and Family       Mitigation       Disaster
                                          Grants            Grants          Grants          Grants

Award Amounts:

  Federal Share                      $ 4,014,698 $          895,000 $ 2,685,442  $          7,595,140
  Local/State Share                      1,289,997           328,200     866,830               2,485,027

Total Award Amount                   $ 5,304,695      $ 1,223,200      $ 3,552,272      $ 10,080,167

Source of Funds:

  Federal Share                      $ 4,014,698 $          895,000 $ 1,932,767  $          6,842,465
  Local/State Share                      1,289,997           328,200     912,555               2,530,752

Total Source of Funds                $ 5,304,695      $ 1,223,200      $ 2,845,322      $   9,373,217

Application of Funds:

  Federal Share                      $ 4,014,698 $          895,000 $ 1,798,828  $          6,708,526
  Local/State Share                      1,289,997           328,200     912,555               2,530,752

Total Application of Funds           $ 5,304,695      $ 1,223,200      $ 2,711,383      $   9,239,278



Balance of Federal Funds on Hand     $           0    $           0    $     133,939    $    133,939
                                                                                        Attachment A-2



                             Schedule of Source and Application of Funds
                                        Michigan State Police
                                 Disaster Assistance Grant Program
                                      As of September 30, 2001

               Disaster Assistance Grant 1181 Severe Storms, Tornados and Flooding



                                          Public          Individual        Hazard           Total
                                         Assistance       and Family       Mitigation       Disaster
                                          Grants            Grants          Grants          Grants

Award Amounts:

  Federal Share                      $21,181,389 $ 2,136,510 $ 5,591,879   $                28,909,778
  Local/State Share                    11,795,600     712,170    2,143,347                   14,651,117

Total Award Amount                   $32,976,989      $ 2,848,680      $ 7,735,226      $   43,560,895

Source of Funds:

  Federal Share                      $21,181,389 $ 2,136,510 $ 2,798,421   $                26,116,320
  Local/State Share                    11,795,600     712,170    1,046,938                   13,554,708

Total Source of Funds                $32,976,989      $ 2,848,680      $ 3,845,359      $   39,671,028

Application of Funds:

  Federal Share                      $21,181,389 $ 2,136,510 $ 2,921,839   $                26,239,738
  Local/State Share                    11,795,600     712,170    1,046,938                   13,554,708

Total Application of Funds           $32,976,989      $ 2,848,680      $ 3,968,777      $   39,794,446



Balance of Federal Funds on Hand     $           0    $           0    $    (123,418)   $     (123,418)
                                                                                           Attachment A-3



                             Schedule of Source and Application of Funds
                                        Michigan State Police
                                 Disaster Assistance Grant Program
                                      As of September 30, 2001

              Disaster Assistance Grant 1226 Severe Storms and Straight Line Winds



                                          Public          Individual          Hazard            Total
                                         Assistance       and Family         Mitigation        Disaster
                                          Grants            Grants            Grants           Grants

Award Amounts:

  Federal Share                      $28,803,172 $                0      $ 3,694,218   $       32,497,390
  Local/State Share                      9,371,137                     0     1,535,787          10,906,924

Total Award Amount                   $38,174,309      $           0      $ 5,230,005       $   43,404,314

Source of Funds:

  Federal Share                      $28,616,813 $                0      $ 1,526,041  $        30,142,854
  Local/State Share                      9,273,909                     0      624,179            9,898,088

Total Source of Funds                $37,890,722      $           0      $ 2,150,220       $   40,040,942

Application of Funds:

  Federal Share                      $28,636,534 $                0      $ 1,571,624  $        30,208,158
  Local/State Share                      9,273,909                     0      624,179            9,898,088

Total Application of Funds           $37,910,443      $           0      $ 2,195,803       $   40,106,246



Balance of Federal Funds on Hand     $      (19,721) $            0      $      (45,583)   $      (65,304)
                                                                                            Attachment A-4



                             Schedule of Source and Application of Funds
                                        Michigan State Police
                                 Disaster Assistance Grant Program
                                      As of September 30, 2001

                   Disaster Assistance Grant 1237 Severe Storms and High Winds



                                          Public          Individual            Hazard           Total
                                         Assistance       and Family           Mitigation       Disaster
                                          Grants            Grants              Grants          Grants

Award Amounts:

  Federal Share                      $ 5,045,720 $                0        $     997,087  $     6,042,807
  Local/State Share                      1,610,890                     0          399,368        2,010,258

Total Award Amount                   $ 6,656,610      $           0        $ 1,396,455      $   8,053,065

Source of Funds:

  Federal Share                      $ 4,969,013 $                0        $     556,500  $     5,525,513
  Local/State Share                      1,605,902                     0          211,162        1,817,064

Total Source of Funds                $ 6,574,915      $           0        $     767,662    $   7,342,577

Application of Funds:

  Federal Share                      $ 5,022,113 $                0        $     505,794  $     5,527,907
  Local/State Share                      1,605,902                     0          211,162        1,817,064

Total Application of Funds           $ 6,628,015      $           0        $     716,956    $   7,344,971



Balance of Federal Funds on Hand     $      (53,100) $            0        $      50,706    $      (2,394)
                                                                                                Attachment A-5



                             Schedule of Source and Application of Funds
                                        Michigan State Police
                                 Disaster Assistance Grant Program
                                      As of September 30, 2001

                         Disaster Assistance Grant 3137 Snow Emergency



                                          Public          Individual            Hazard               Total
                                         Assistance       and Family           Mitigation           Disaster
                                          Grants            Grants              Grants              Grants

Award Amounts:

  Federal Share                      $ 9,040,775 $                0        $           0        $    9,040,775
  Local/State Share                      2,888,587                     0                    0         2,888,587

Total Award Amount                   $11,929,362      $           0        $           0        $   11,929,362

Source of Funds:

  Federal Share                      $ 8,991,305 $                0        $           0        $    8,991,305
  Local/State Share                      2,874,514                     0                    0         2,874,514

Total Source of Funds                $11,865,819      $           0        $           0        $   11,865,819

Application of Funds:

  Federal Share                      $ 8,995,605 $                0        $           0        $    8,995,605
  Local/State Share                      2,874,514                     0                    0         2,874,514

Total Application of Funds           $11,870,119      $           0        $           0        $   11,870,119



Balance of Federal Funds on Hand     $       (4,300) $            0        $           0        $      (4,300)
                                                                                            Attachment A-6



                             Schedule of Source and Application of Funds
                                        Michigan State Police
                                 Disaster Assistance Grant Program
                                      As of September 30, 2001

                      Disaster Assistance Grant 1346 Severe Storms and Flooding



                                          Public            Individual         Hazard            Total
                                         Assistance         and Family        Mitigation        Disaster
                                          Grants              Grants           Grants           Grants

Award Amounts:

  Federal Share                      $           0      $57,025,000 $ 2,126,369  $              59,151,369
  Local/State Share                                   0   18,103,175     913,968                 19,017,143

Total Award Amount                   $           0      $75,128,175       $ 3,040,337       $   78,168,512

Source of Funds:

  Federal Share                      $           0      $52,299,143 $             1,432  $      52,300,575
  Local/State Share                                   0   17,522,880              20,981         17,543,861

Total Source of Funds                $           0      $69,822,023       $      22,413     $   69,844,436

Application of Funds:

  Federal Share                      $           0      $52,663,961 $            64,509  $      52,728,470
  Local/State Share                                   0   17,523,880              20,981         17,544,861

Total Application of Funds           $           0      $70,187,841       $      85,490     $   70,273,331



Balance of Federal Funds on Hand     $           0      $     (364,818)   $      (63,077)   $    (427,895)
                                                                                                Attachment A-7



                             Schedule of Source and Application of Funds
                                        Michigan State Police
                                 Disaster Assistance Grant Program
                                      As of September 30, 2001

                         Disaster Assistance Grant 3160 Snow Emergency



                                          Public          Individual            Hazard               Total
                                         Assistance       and Family           Mitigation           Disaster
                                          Grants            Grants              Grants              Grants

Award Amounts:

  Federal Share                      $ 9,180,747 $                0        $           0        $    9,180,747
  Local/State Share                      2,927,887                     0                    0         2,927,887

Total Award Amount                   $12,108,634      $           0        $           0        $   12,108,634

Source of Funds:

  Federal Share                      $ 8,425,197 $                0        $           0        $    8,425,197
  Local/State Share                      2,873,391                     0                    0         2,873,391

Total Source of Funds                $11,298,588      $           0        $           0        $   11,298,588

Application of Funds:

  Federal Share                      $ 8,854,811 $                0        $           0        $    8,854,811
  Local/State Share                      2,873,391                     0                    0         2,873,391

Total Application of Funds           $11,728,202      $           0        $           0        $   11,728,202



Balance of Federal Funds on Hand     $    (429,614) $             0        $           0        $    (429,614)
                                                                                        Attachment B

            Comparison of Reported State and Local Share Expenditures
                              Michigan State Police
                           (as of September 30, 2001)



                                              Financial Status          Source and
                                               Report Form             Application of
 Disaster            Federal Grant                 20-10              Funds Schedule

   1128          Hazard Mitigation                   912,555                912,555

   1181          Hazard Mitigation                 1,037,884              1,046,938

   1226          Public Assistance                16,030,609              9,273,909
                 Hazard Mitigation                   616,114                624,179

   1237          Public Assistance                 2,249,105              1,605,902
                 Hazard Mitigation                   207,821                211,162

   3137          Public Assistance                 3,435,232              2,874,514

   1346          Individual and Family            17,522,880             17,522,880
                 Hazard Mitigation                    20,971                 20,971

   3160          Public Assistance                 2,947,599              2,873,391




NOTE 1: The State could not provide support for its calculations of the recipient
share of outlays as reported on the original Form 20-10 as represented here. See
Findings A1 and A2.

NOTE 2: The State relied upon information not supported by the official accounting
records while preparing the Source and Application of Funds Schedule as represented
here. See Findings A1 and A2.
Attachment C
